U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 20, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Acosta v. United States, No. 21-5016
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 1, 2021.
The government’s response is now due, after one extension, on September 7, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 7, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-5016
ACOSTA, SALVADOR
USA

BENJAMIN LEE COLEMAN
COLEMAN & BALOGH LLP
1350 COLUMBIA STREET
SUITE 600
SAN DIEGO, CA 92101
619-794-0420
BLC@COLEMANBALOGH.COM

